Harper, Rains, Stokes & Knight, P.A.




                    Agreed-Upon Procedures on the
                           State of California,
                  Employment Development Department’s
                     Year 2000 Grant Expenditures




                                   FINAL REPORT




    This Agreed Upon Procedures Report was performed by the Accounting Firm of
    Harper, Rains, Stokes & Knight, P.A. under contract to the U.S. Department of
    Labor - Office of Inspector General, and, by acceptance, it becomes a report of the
    Office of Inspector General.


                                         Assistant Inspector General for Audit




                                                         Report Number: 04-01-008-03-315
                                                         Date Issued: September 21, 2001
Agreed-Upon Procedures on the State of California,
Employment Development Department’s Year 2000 Grant Expenditures



                                             TABLE OF CONTENTS


ACRONYMS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iv

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

INTRODUCTION AND PRINCIPAL CRITERIA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

INDEPENDENT ACCOUNTANTS’ REPORT ON
 APPLYING AGREED-UPON PROCEDURES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

OBJECTIVE, SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

RESULTS OF AGREED-UPON PROCEDURES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

          Base-Funded Staff Costs of $603,963
          Were Improperly Charged to the Y2K Grants . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

          Unsupported Hardware Costs of $151,516 Were
          Improperly Charged to the Y2k Grants . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

          Retroactive Charges of $97,676
          Were Made to the Y2K Grants . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

          Unreconciled Amounts Totaling
          $18,545 Were Charged to the Y2k Grants . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

          Tuition and Books Charges of
          $1,243 Were Not Y2K Related . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

ATTACHMENT - CALIFORNIA’S Y2K EXPENDITURES

EXHIBIT A - CALCULATION OF ALLOCATION PERCENTAGES
            FOR JS AND UI PROGRAMS


                                                                                                                                   ii
Agreed-Upon Procedures on the State of California,
Employment Development Department’s Year 2000 Grant Expenditures




                             TABLE OF CONTENTS (Cont.)


EXHIBIT B - DETAIL OF RESULTS OF AGREED-UPON PROCEDURES

EXHIBIT C - TEXT OF CAEDD’S RESPONSE TO THE DRAFT REPORT




Harper, Rains, Stokes & Knight, P.A.                               iii
Agreed-Upon Procedures on the State of California,
Employment Development Department’s Year 2000 Grant Expenditures




                                       ACRONYMS


DOL            U.S. Department of Labor
ES             Employment Service
ETA            Employment and Training Administration
FM             Unemployment Insurance Field Memoranda
FY             Fiscal Year
IV & V         Independent Verification and Validation
JS             Job Service Branch of California Employment Development Department
JTPA           Job Training Partnership Act
CAEDD          California Employment Development Department
OIG            Office of Inspector General
RA             Regional Administrator
SBR            Supplemental Budget Request
SESA           State Employment Security Agency
SOF            Statement of Facts
UI             Unemployment Insurance
UIPL           Unemployment Insurance Program Letters
Y2K            Year 2000




Harper, Rains, Stokes & Knight, P.A.                                                iv
Agreed-Upon Procedures on the State of California,
Employment Development Department’s Year 2000 Grant Expenditures



                                        EXECUTIVE SUMMARY


    During Fiscal Years (FYs) 1998 and 1999, Congress appropriated funds to help State
    Employment Security Agencies (SESAs) make their automated Unemployment Insurance (UI)
    and Employment Service (ES) systems Year 2000 (Y2K) compliant. The U.S. Department of
    Labor (DOL), Employment and Training Administration (ETA), awarded the California
    Employment Development Department (CAEDD) grants totaling $11,266,110 from funds
    available for Y2K readiness. Qualifying Y2K-readiness costs incurred by all of CAEDD’s
    branches were $15,151,343.1

    As part of this engagement, we examined direct and allocated charges of $15,097,542 the Y2K
    grants that occurred from their inception through September 30, 2000, and found CAEDD did
    not always comply with requirements governing use of the funds. We have questioned $848,6432
    consisting of:

            •        $603,963 of staff salary and fringe benefit costs that did not satisfy criteria for
                     reimbursement as Y2K expenditures;

            •        $151,516 of hardware costs incurred by CAEDD that were unsupported with
                     regard to their being Y2K necessary in accordance with the terms of the grants;

            •        $73,376 of miscellaneous costs charged to the grants that were incurred prior to
                     October 1, 1997 ($93,676 of expenditures less $24,300 of hardware costs included
                     in the finding on unsupported hardware costs above);

            •        $18,545 of expenditures for unidentified and unreconcilable amounts which were
                     charged to the grants; and

            •        $ 1,243 of tuition and book costs that were not Y2K related.




1
  Although additional costs were incurred for the project, this amount represent costs from the inception of the
project
  until March of 1999, when ETA-provided funding was exhausted.

2
    In the draft report, we questioned $1,068,626 which has been reduced by a total of $224,983 because of additional
    documentation provided in CAEDD’s response to the draft report.

    Harper, Rains, Stokes & Knight, P.A.
Agreed-Upon Procedures on the State of California,
Employment Development Department’s Year 2000 Grant Expenditures


We recommend the Assistant Secretary for Employment and Training recover grant expenditures,
totaling $848,643 related to the findings identified.




Harper, Rains, Stokes & Knight, P.A.                                                       2
Agreed-Upon Procedures on the State of California,
Employment Development Department’s Year 2000 Grant Expenditures



                  INTRODUCTION AND PRINCIPAL CRITERIA


                                In FY 1998, concerns with the approach of Y2K and the potential
ORIGIN AND
                                for problems with automated systems prompted Congress to
PURPOSE OF Y2K FUNDS
                                provide SESAs with grants that totaled $200 million. The funds
                                were to help ensure SESAs’ automated UI and ES systems were
                                Y2K compliant.

ETA distributed base funding of $1 million to each of the 53 SESAs. In addition to base funding
of $53 million, ETA awarded $9,540,000 ($180,000 to each SESA) to develop business
continuity or contingency plans, in the event of Y2K-related shutdowns of critical UI and ES
systems, or for independent verification and validation (IV & V) of Y2K compliance measures.
During FY 1998, each SESA was also afforded the opportunity to request additional funds for
specific Y2K needs, through Supplemental Budget Requests (SBRs). The SBRs detailed specific
Y2K-related needs for which the funds were requested. The SBRs were evaluated by a panel
consisting of ETA staff, and the funds were awarded based upon what the panel judged were
“reasonable and allowable” costs.

In Fiscal Year 1999, ETA reprogrammed an additional $50 million of UI contingency funds to
address the SESAs’ Y2K needs. The funds were awarded to the SESAs through SBRs. ETA
required the SESAs to demonstrate a “compelling need” for the funds to be considered for the FY
1999 awards.

CAEDD received a total of $11,266,110 in Y2K grant funds from ETA. In FY 1998, ETA
distributed Y2K base and IV & V funds of $1,180,000 to CAEDD. Also, in FY 1998, CAEDD
received additional Y2K grants of $8,969,737 through two separate SBRs. During FY 1999,
ETA awarded an additional $1,296,373 in Y2K funds which CAEDD had requested in two
separate SBRs.


                                       ETA Field Memorandum 50-97, dated August 4, 1997,
PRINCIPAL CRITERIA
                                       provided the following guidance for the use of FY 1998
                                       Y2K funds:

       The Y2K Compliance projects for which funds are received must focus on
       activities relating to Year 2000 conversion efforts, the replacement or upgrading
       of systems, systems interfaces, and/or software products necessary to ensure Y2K

Harper, Rains, Stokes & Knight, P.A.                                                            3
Agreed-Upon Procedures on the State of California,
Employment Development Department’s Year 2000 Grant Expenditures


       compliance, or replacing or upgrading computer hardware that is not Y2K
       compliant and that will adversely impact system or program performance if not
       replaced or upgraded.

       Costs incurred by SESA base funded staff assigned to the project on a temporary
       basis cannot be funded by the Y2K grant; however, overtime costs are allowable.
       Any staff costs must be for additional staff, not previously funded by the SESAs
       base grant, or for overtime applied to Y2K activities performed by the technical
       staff or program personnel.

       . . .SESAs are required to include a separate entry for Y2K expenditures in the SF
       269 comment section and to maintain documentation supporting all charges to
       Y2K automation efforts as part of the regular reporting process for Base
       Expenditures.

       SESAs which receive a supplemental Y2K conversion grant and subsequently
       determine that other hardware or software is more suitable may elect to substitute
       the more suitable product contingent upon adequately documenting the
       appropriateness of the substituted purchase and obtaining the agreement of the
       Regional and National Offices.

Guidance on the use of FY 1999 Y2K supplemental funding was included in ETA Field
Memorandum 3-99, dated October 13, 1998:

       The Y2K funds received must be used only for activities relating to Y2K
       compliance efforts, including replacement or upgrading of systems, systems
       interfaces, and/or software products which will adversely impact system or
       program performance if not replaced or upgraded. . . .

       FY 1999 Y2K funds are intended to meet those identified immediate requirements
       of those SESAs which, in the absence of these additional funds, are unlikely to
       achieve Y2K compliance of their employment security automated systems. Thus,
       compelling need is the primary criterion which will be used in evaluating SBRs.
       Additionally, the SESA must demonstrate that the funds will materially assist the
       SESA in achieving its Y2K compliance goals.

       Costs incurred by SESA base funded staff assigned to the project on a temporary
       basis cannot be funded by the Y2K grant; however, overtime costs are allowable.
       Any staff costs must be for additional staff, not previously funded by the SESAs


Harper, Rains, Stokes & Knight, P.A.                                                        4
Agreed-Upon Procedures on the State of California,
Employment Development Department’s Year 2000 Grant Expenditures


       base grant, or for overtime applied to Y2K activities performed by the technical
       staff or program personnel.

       . . .SESAs are required to include a separate entry for Y2K expenditures in the SF
       269 comment section and to maintain documentation supporting all charges to
       Y2K automation efforts as part of the regular reporting process for Base
       Expenditures.

Additional guidance on the use of FY 1999 Y2K supplemental funding was included in ETA Field
Memorandum 47-99, dated July 14, 1999:

       These funds may not be applied to base staff positions or to support staffing
       positions otherwise covered by base grants, or to on-going maintenance activities
       or to on-going communications.

       Funds allocated for Y2K can only be used for activities or purchases relating to
       Y2K compliance efforts, including replacement or upgrading of systems, systems
       interfaces, and/or software products that, if not repaired or replaced, would
       adversely impact the UI program.

       These funds cannot be applied to purchases of personal computers (PCS),
       peripheral devices (printers, modems, monitors, etc.) or PC-based office support
       applications such as electronic mail, spreadsheets, or word processors.

       These Y2K funds are intended to meet those identified immediate requirements of
       SESAs which, in the absence of these funds, are unlikely to achieve Y2K
       compliance of their UI automated systems.

       Funds granted through this process must be applied expressly to those cost items
       presented within the SBR including any clarifications or stipulations made by the
       review panel. State agencies that wish to redirect funds from an approved cost
       item must request such changes through the Regional Office and must receive
       advance written approval from the National Office. Funds redirected without
       such approval are subject to recapture or audit exception.

The “Executive Summary” of ETA’s “Year 2000 SBR Review Panel’s Briefing Package” stated
that SESAs should prioritize their spending to best meet their own critical needs, and that ETA
Regional Offices should:




Harper, Rains, Stokes & Knight, P.A.                                                              5
Agreed-Upon Procedures on the State of California,
Employment Development Department’s Year 2000 Grant Expenditures


       . . .strongly encourage the SESAs to initially concentrate their efforts and
       resources on making UI Benefits systems compliant, as they are mission critical
       and will be the first to fail. Before funds are spent on PC upgrades and
       replacements, mission critical systems need to be converted and tested for
       compliance.




Harper, Rains, Stokes & Knight, P.A.                                                     6
Agreed-Upon Procedures on the State of California,
Employment Development Department’s Year 2000 Grant Expenditures


                        Harper, Rains, Stokes and Knight, P.A.
                                   One Hundred Concourse
                                1052 Highland Colony Parkway
                              Highland Colony Parkway, Suite 100
                                 Ridgeland Mississippi, 39157


Mr. John J. Getek
Assistant Inspector General for Audit
Office of inspector General
U.S. Department of Labor
200 Constitution Ave, N.W., Suite S5022
Washington, D.C. 20210


                  INDEPENDENT ACCOUNTANTS’ REPORT
                 ON APPLYING AGREED-UPON PROCEDURES


We have performed the procedures described in the engagement program provided by the U.S.
Department of Labor, Office of Inspector General (OIG), which were agreed to by the OIG,
solely to assist in evaluating the State of California Employment Development Department’s
(CAEDD) compliance with the terms and provisions of the Y2K grants as noted in the
Unemployment Insurance Field Memoranda (FM) and Program Letters (UIPL).

This agreed-upon procedures engagement was performed in accordance with attestation standards
established by the American Institute of Certified Public Accountants and Government Auditing
Standards, issued by the Comptroller General of the United States.

The sufficiency of these procedures is solely the responsibility of the OIG. Consequently, we
make no representations regarding the sufficiency of the procedures described in the engagement
program, either for the purpose for which this report has been requested or for any other purpose.

The results of our procedures are enumerated in the section titled “Results of Agreed-Upon
Procedures, within this report.

We were not engaged to, and did not perform an examination, the objective of which would be
the expression of an opinion on CAEDD’s compliance assertion on its utilization of the funds
granted by ETA. Accordingly, we do not express such an opinion. Had we performed additional


Harper, Rains, Stokes & Knight                                                                   7
Agreed-Upon Procedures on the State of California,
Employment Development Department’s Year 2000 Grant Expenditures


procedures, other matters might have come to our attention that would have been reported to
you.

This report is intended solely for the use of the OIG and should not be used by those who have
not agreed to the procedures and taken responsibility for the sufficiency of the procedures for
their purposes.


Harper, Rains. Stokes & Knight, P.A.
Ridgeland, Mississippi
September 20, 2001




Harper, Rains, Stokes & Knight                                                                    8
Agreed-Upon Procedures on the State of California,
Employment Development Department’s Year 2000 Grant Expenditures



                       OBJECTIVE, SCOPE AND METHODOLOGY


The primary objective of this engagement was to determine whether funds designated for Y2K
compliance were spent for intended purposes, in compliance with grant provisions and other
applicable Federal criteria.

We examined Y2K grant funds received and the corresponding expenditures of the funds by
CAEDD during the period October 1, 1997 through September 30, 2000. We reviewed the SBRs
and financial status reports, interviewed state officials and reviewed financial records and other
documentation related to Y2K conversion expenditures.

CAEDD received a total of $11,266,110 from ETA for Y2K compliance activities, all of which
was expended as of September 30, 2000. The population of qualifying costs incurred by
CAEDD for Y2K readiness for all branches was $15,151,343.

This total amount of cost was partially allocated to the Job Service (JS)3 and UI branches within
CAEDD using an internally-derived allocation percentage based on historical data as detailed in
the accompanying Exhibit A. CAEDD officials stated that the reason an allocation percentage
was used to charge costs to the grants was that the Y2K project addressed compliance for
systems used by all branches of CAEDD. These common systems were not specifically
identifiable with any particular branch of CAEDD and so the allocation to JS and UI was
determined on another basis.

The $15,151,343 was the entire amount of cost incurred for all branches over the period which
CAEDD received funding. Subsequent to a periodic accumulation of these costs in specific
ledger accounts, portions of these costs were isolated, allocated to JS and UI and charged to the
grants. The methodology used to accomplish this, however, was inconsistent 4 over the course of
the grant period. It is for this reason that simple application of the allocation percentage derived
in Exhibit A to the entire population of costs and addition of the costs of personnel and
benefits, which were charged wholly without allocation, will not result in the $11,266,110 which
was charged to the grants.

3
    “JS” or Job Service is synonymous with Employment Service (ES).

4
  Initially, charges were specifically isolated and charged to the grants. Subsequently, charges were isolated wholly
from the pool of costs accumulated as mentioned above and then the application percentage was applied. The
third and most consistently applied method for charging the grants was the straight application of the allocation
percentage to the entire amount of costs accumulated in the pool from the point of the prior transfer.

Harper, Rains, Stokes & Knight                                                                                      9
Agreed-Upon Procedures on the State of California,
Employment Development Department’s Year 2000 Grant Expenditures


We examined expenditures for personnel and benefits of $876,423 which were charged to the
grants without allocation, as well as expenditures for contract services, hardware, software and
other items totaling $14,221,119. The costs were allocated by CAEDD in the aforementioned
ratio, from the inception of the grant through September 30, 2000.

Our engagement objective was to determine whether Y2K funds were spent for intended
purposes, in conformity with the grant agreements and applicable Federal requirements. Our
engagement was conducted in accordance with agreed-upon procedures developed by the U.S.
Department of Labor, Office of the Inspector General and found in the DOL-OIG Engagement
Guide–Y2K SESA Spending and included such tests as OIG to satisfy the objectives of the
engagement. The agreed-upon procedures engagement was also performed in accordance with
Government Auditing Standards, issued by the Comptroller General of the United States.

Our review of internal controls was limited to those controls related to the FY 1998 and
FY 1999 Y2K funds. We did not evaluate CAEDD’s general operational internal controls over
non-Y2K funds. Our agreed-upon procedures engagement was conducted for the sole purpose of
determining if ETA’s requirements for the use of Y2K funds had been followed. The
expenditures reported by CAEDD as included in the attachment of this report were the sole
source of transactions selected for compliance testing. Fieldwork began April 2001 and continued
through June 2001.

A Statement of Facts (SOF) containing data collected during our engagement was issued to
CAEDD at the conclusion of fieldwork. CAEDD’s response to the SOF was considered in
preparing both the draft and this final report. The results of our agreed-upon procedures
engagement is presented in the “Results of Agreed-Upon Procedures” section of this report.




Harper, Rains, Stokes & Knight                                                                     10
Agreed-Upon Procedures on the State of California,
Employment Development Department’s Year 2000 Grant Expenditures



                   RESULTS OF AGREED-UPON PROCEDURES


Although CAEDD avoided interruption of ES and UI services, it did not always adhere to ETA’s
requirements governing the use of Y2K funds. We identified grant expenditures, totaling
$848,643 that were not in accordance with Y2K grant requirements. For purposes of discussion,
we have classified those expenditures into the following categories:

       •       $603,963 of “base-funded” staff salary and benefit charges;

       •       $151,516 of hardware costs charged to the Y2K grants;

       •       $73,376 of expenditures retroactively charged to the grants ($97,676 of
               expenditures less $24,300 of hardware costs included in the finding on
               unsupported hardware costs above);

       •       $18,545 that was charged to the grant yet was unsupported and unreconcilable to
               Y2K expenditures; and

       •       $1,243 of expenditures for tuition and books that were unrelated to Y2K but
               charged to the grants.


BASE-FUNDED STAFF COSTS OF $603,963 WERE                  CAEDD improperly charged $603,963 of
IMPROPERLY CHARGED TO THE Y2K GRANTS                      staff salary and fringe benefit costs to the
                                                          Y2K grants.

The DOL provides all SESAs annual appropriations to pay the costs of administering ES and UI
activities. Annual appropriations include monies for “base-funded” personal service and benefit
costs. ETA established restrictions on how Y2K funds could be spent, to ensure Y2K grant funds
were used to pay the additional costs of staff working on Y2K-related problems, and to prevent
Y2K funds from being used to supplant the cost of base-funded activities.

To that end, ETA required that personnel costs charged to theY2K grants be only for the
overtime costs of base-funded staff, or for the salaries of additional staff (in excess of base-funded
levels) hired to work on critical Y2K-related problems. However, CAEDD did not comply with
this requirement resulting in improper charges of $603,963 of base-funded staff salaries and
benefit costs to the Y2K grants.


Harper, Rains, Stokes & Knight                                                                     11
Agreed-Upon Procedures on the State of California,
Employment Development Department’s Year 2000 Grant Expenditures


ETA Field Memorandum Number 50-97, dated August 4, 1997, discusses SESA’s compliance
activities related to Y2K funding. Under Staff Needs, at Section 6, SBR Proposal Format and
Instructions, ETA states:

       Costs incurred by SESA base funded staff assigned to the project on a temporary basis
       cannot be funded by the Y2K grant; however, overtime costs are allowable. Any staff
       costs must be for additional staff, not previously funded by the SESA’s base grant, or for
       overtime applied to Y2K activities performed by technical staff or program personnel.

ETA reiterated an identical requirement in Field Memorandum 3-99, dated October 13, 1998,
concerning staff charging time to FY 1999 Y2K grants funded through SBRs. Also, ETA Field
Memorandum 47-99, dated July 14, 1999, provided additional guidance on staff charges to FY
1999 SBRs:

       These funds may not be applied to base staff positions or to support staffing positions
       otherwise covered by base grants, or to on-going maintenance activities or to on-going
       communications.

CAEDD designated six full-time, base-funded employees along with a single retired annuitant as
“dedicated” to the Y2K compliance efforts for the JS and UI programs. In order to satisfy the
terms of the grants and qualify their salary and benefits costs as legitimate Y2K grant charges, the
seven employees should have spent their effort on, and charged their time solely to, JS and UI
Y2K program activities. We found that each of the seven employees charged time to programs
other than the JS and UI, indicating their efforts were not entirely dedicated to the JS and UI
programs’ Y2K compliance efforts. In fact, $423,680 of the salaries questioned in this finding
were charged to programs other than JS or UI.

Moreover, we did not find evidence that the dedicated Y2K employees’ positions were backfilled.
We concluded that a portion of staff salaries and benefits already being funded by base grants
were also being funded with Y2K grant monies. We noted that CAEDD was denied funding in
their SBR request for FY 1998 and 1999 because it had not substantiated staff costs. As
annotated in a letter dated January 13, 1998, from the Region IX ETA office to the Director of
CAEDD:

       California’s budget plan. . .does not indicate whether staff costs are for new positions,
       back-filled positions, base staff, or for overtime. Because the costs were so difficult to
       decipher, the panel added up. . .Personnel and Fringe Benefits ($2,012,850) and then
       subtracted half of the total of these costs as not allowed.




Harper, Rains, Stokes & Knight                                                                      12
Agreed-Upon Procedures on the State of California,
Employment Development Department’s Year 2000 Grant Expenditures



CAEDD’S COMMENTS ON THE DRAFT REPORT


In response to our draft report, CAEDD provided additional information regarding the $705,224
of questioned staff salary and fringe benefit costs. (The entire text of CAEDD’s response to this
and other findings is included as Exhibit C to this report). The response indicates one of the base-
funded staff positions was appropriately back filled. Moreover, the response contests the entire
$705,224 of questioned costs based on Region VII Letter No. 97-33. CAEDD’s response
provides:

       [Individual 1] worked as a manager on the Y2K project in a limited-term
       position. In January 1998 [Individual 1's] prior position was filled by
       [Individual 2], recruited from the California Department of Social Services and
       therefore not a baseline Unemployment Insurance (UI) or Job Service (JS)
       employee. Information supplied to the auditors by the EDD incorrectly stated that
       [ Individual 2] left that position March 1, 1998, and consequently all charges for
       in-scope Y2K work by [Individual 1] after February 1998 were disallowed. EDD,
       on examination of the details of the audit findings, caught their error. [Individual
       2] actually remained in [Individual 1's] prior position through May 4, 2001;
       therefore, charges to the grant for [Individual 1's] services from January 1998
       through February 2000 totaling $101,261, should be allowed.

       In addition, we believe the $705,224 in questioned base-funded staff costs should be
       allowed per Region VII Letter No. 97-33, Change 1. Letter No. 97-33, Change 1 states
       that “As soon as the funds become available, a $1 million base grant will be allocated to
       each SESA, to be applied to Y2K compliance activities or for the purchase of Y2K related
       products. The base grant funds may be applied to base staff if the base staff is assigned
       to work on Y2K activities. Once appropriated, Y2K funds may be applied to allowable
       costs incurred anytime during FY 1998.” Since the Y2K funds were available for a three-
       year period, the $1 million more than covers all the base-funded staff costs questioned.


OUR CONCLUSION

Having reviewed this additional information and the accompanying support for its position, the
auditors agree that $101,261 of staff salary and fringe benefit costs, associated with the backfilled
position, were spent in compliance with the terms and provisions of the Y2K grants.
However, we do not agree that the balance of $603,963 spent on salary and benefit costs
conformed with the Y2Kk grants’ requirements.

Harper, Rains, Stokes & Knight                                                                     13
Agreed-Upon Procedures on the State of California,
Employment Development Department’s Year 2000 Grant Expenditures


The intention of the formal governing criteria for funding staff and fringe benefit costs outlined in
Field Memorandum 50-97 was to ensure that grant funds were used to pay the additional costs of
staff working on Y2K-related problems. DOL provides all SESAs annual appropriations to pay
the costs of administering ES and UI activities. The appropriations, include monies for base-
funded personal service and benefit costs. In consideration of this, restrictions were imposed by
the Field Memoranda to prevent grant funds from being used to supplant appropriations for the
cost of base-funded activities. The Region VII Letter No. 97-33, Change 1, cited by CAEDD as
their basis for charging the base funded staff to the cost of the grants is silent to the restrictions
imposed by the formal governing criteria, that being the Field Memoranda identified by the
auditors in the body of the above finding.

The letter cited in EDD’s response was written by ETA regional staff. We have since learned,
that its content was taken from an electronic mail message sent by ETA’s Office of Regional
Management (ORM) to its regional administrators (RAs), on October 7, 1997. Its purpose was
“to provide clarification to the funding requirements provided in FM 50-97. . . .”

Both the e-mail and the RA’s letter required that regular base positions redirected toY2K
activities funded by the SBR were to be backfilled. However, the correspondence was silent
concerning whether regular base positions redirected to Y2K base grant activities needed to be
backfilled. Further, both the ORM e-mail and the letter from the RA were disseminated outside
of ETA’s formal policy-making procedures.

As interpreted by the State, the RA’s letter may conflict with the formal governing criteria
provided in FM 50-97, which was disseminated nationally, with respect to limitations on the use
of the Y2K base grant to fund regular base staff positions. However, as the original
e-mail was distributed as a clarification, rather than a change to existing policy, and because it was
silent on the issue of the need to backfill regular base positions funded with the Y2K base grant,
its meaning was ambiguous at best.

The State’s interpretation also contravenes the purpose for which Y2K funds were appropriated
and the intent of the restrictions. Y2K grant funds were expected to be spent on Y2K-readiness
activities. DOL provides all SESAs annual appropriations to pay the costs of administering ES
and UI activities, and the appropriations include monies for base-funded personal service and
benefit costs. Restrictions on how Y2K funds could be spent helped ensure the grant funds were
used to pay the additional costs of staff working on Y2K-related problems, and prevent Y2K
funds from being used to supplant the cost of base-funded activities.

Also, CAEDD’s stewardship of itsY2K grants causes us to question whether the State relied on
the interpretation and recognized a distinction between restrictions affecting Y2K base grants and
SBRs. CAEDD commingled financial activities related to the Y2K base grant and SBR in Y2K

Harper, Rains, Stokes & Knight                                                                      14
Agreed-Upon Procedures on the State of California,
Employment Development Department’s Year 2000 Grant Expenditures


fund ledger accounts. We are unable to determine what activities were paid for by each of the
grants, and CAEDD’s accounting practices indicate the State did not segregate each of the
awards, which should have been done to ensure unallowable base funded salary costs were not
charged to the SBR.

Finally, as we previously discussed, the employees in question charged $423,680 in personnel
costs to the Y2K grants even though their time charges indicate they spent the time on activities
other than ES or UI, indicating they were not working on ES or UI Y2K-readiness projects. This
concern was not addressed in CAEDD’s response. We note that no guidance provided by ETA,
either formal or as might have been interpreted by CAEDD in the Regional Letter, suggest it was
appropriate to use Y2K funds for other activities. Consequently, we continue to recommend
recovery of $603,963.

                                                          ETA’s guidance requires that all
UNSUPPORTED HARDWARE COSTS OF $151,516                    SESAs receiving grant funds maintain
WERE IMPROPERLY CHARGED TO THE Y2KGRANTS                  adequate documentation for all costs
                                                          which are charged to the grants.

Field Memoranda 50-97, dated August 4, 1997, and 3-99, dated October 13, 1998, each state:

       . . .SESAs are required to. . .maintain documentation supporting all charges to
       Y2K automation efforts as part of the regular reporting process. . . .

Additionally, Field Memorandum No. 50-97 states:

       The Y2K Compliance projects for which funds are received must focus on activities
       relating to Year 2000 Conversion efforts, the replacement or upgrading of systems,
       systems interfaces, and/or software products necessary to ensure Y2K compliance, or
       replacing or upgrading computer hardware that is not Y2K compliant and that will
       adversely impact system or program performance if not replaced or upgraded.

CAEDD charged hardware costs of $151,516 to the grant but did not provide adequate
documentation to support their relevance to Y2K. As a result, we could not determine the
necessity of these purchases for Y2K readiness. Furthermore, there was no discernible
relationship between the items purchased with grant funds and those items that might have been
replaced due to their nonconformity with Y2K standards. (See Exhibit B, Part 1.)


CAEDD’S COMMENTS ON THE DRAFT REPORT


Harper, Rains, Stokes & Knight                                                                   15
Agreed-Upon Procedures on the State of California,
Employment Development Department’s Year 2000 Grant Expenditures


In response to our draft report, CAEDD argued that $62,057 of the $213,573 in hardware costs
questioned in our draft report were allowable. CAEDD’s argument centered on the necessity of
purchasing desktop computers for Y2K contractors and the need to acquire hardware for a
“command center”.

The response indicated:

       The EDD requests consideration for allowance of $62,057 in questioned costs as follows:

       The EDD’s contract with International Business Machines Corporation (IBM)
       Global Servies for consulting staff to supplement our Y2K project team required
       EDD to provide workstations for IBM consultants. The Y2K project is identified
       in EDD records as cost center 3461. This cost center was exclusively for Y2K
       project staff, and all consulting staff reported to this cost center. The number of
       consultants provided by IBM under the contract varied, with the peak being 29
       consultants in February 1999. Included in the hardware purchases identified in
       the audit as disallowed charges were purchases of 19 desktops and monitors, plus
       10 printers and related equipment used to provide workstations for IBM
       consultants to the Y2K projects. These charges, totaling $52,663 should be
       allowable under the terms of the grant.

       Hardware costs totaling $9,394 were incurred to set up a command center to
       continue primary Department functions in the even that Y2K problems caused
       power and communication outages. Our primary focus for continuity of
       operations was UI check processing.


OUR CONCLUSION

Having reviewed this additional information and the support CAEDD provided for their position,
the auditors agree that $62,057 of the $213,573 in hardware costs complied with the terms and
provisions of the Y2K grants. However we continue to question $151,516 as unallowable Y2K
grant costs.

                                                       We identified $97,676 of items purchased
 RETROACTIVE CHARGES OF $97,676
                                                       prior to October 1, 1997, from Y2K grant
 WERE MADE TO THE Y2K GRANTS
                                                       funds.

                                                         ETA Field Memoranda No.’s 50-97,
3-99, and 47-99 all require that funds appropriated to the SESAs be made available for use

Harper, Rains, Stokes & Knight                                                               16
Agreed-Upon Procedures on the State of California,
Employment Development Department’s Year 2000 Grant Expenditures


in the fiscal year issued and not be retroactively applied to any work performed or to any products
purchased prior to October 1, 1997.

Field Memorandum 50-97 dated August 4, 1997, provides:

       . . .funds cannot be applied retroactively to work performed or products already
       purchased prior to October 1, 1997.

In isolating charges from the pool of Y2K costs for their application to the first transfer of funds
related to the Y2K grants, CAEDD included several items of software and hardware that were
purchased prior to October 1, 1997. Included in these costs are $24,300 of hardware costs
included in the finding on unsupported hardware costs above. Exhibit B, Part 2 provides the
details of purchases prior to October 1, 1997.


CAEDD’S COMMENTS ON THE DRAFT REPORT

CAEDD did not comment on this finding.


OUR CONCLUSION

We continue to recommend recovery of $73,376 in retroactive charges to the Y2K grants. This
amount is net of the $24,300 in hardware charges already questioned in the previous finding.


                                                           In determining the means by which costs
 UNRECONCILED AMOUNTS TOTALING
                                                           were charged to the grants, we reconciled
 $18,545 WERE CHARGED TO THE Y2K GRANTS
                                                           the amount of each specific transfer of
                                                           Y2K grant funding from CAEDD’s
ledgers to the underlying detail of the associated costs. Thus, the supporting detail of the
qualifying costs was evaluated and tested. However, we were unable to reconcile the amounts of
the transfers to the underlying detail, in some instances.

Field Memoranda 50-97, dated August 4, 1997, and 3-99, dated October 13, 1998, each provide:

       . . .SESAs are required to. . .maintain documentation supporting all charges to Y2K
       automation efforts as part of the regular reporting process. . . .




Harper, Rains, Stokes & Knight                                                                     17
Agreed-Upon Procedures on the State of California,
Employment Development Department’s Year 2000 Grant Expenditures


As a result of our reconciliations, we identified $18,545 of costs that were charged to the grant, in
excess of supporting detail for these costs. A listing of unreconcilable amounts can be found in
Exhibit B, Part 4.

CAEDD’S COMMENTS ON THE DRAFT REPORT

CAEDD did not comment on this finding.


OUR CONCLUSION

We recommend recovery of $18,545 of Y2K grant costs.


 TUITION AND BOOKS CHARGES OF $1,243                    CAEDD charged the Y2K grant $1,243
 WERE NOT Y2K RELATED                                   for tuition and books that were not related
                                                        to Y2K compliance efforts .

Guidance on the use of FY 1999 Y2K supplemental funding was included in ETA Field
Memorandum 3-99, dated October 13, 1998:

 The Y2K funds received must be used only for activities relating to Y2K compliance efforts,
 including replacement or upgrading of systems, systems interfaces, and/or software products
 which will adversely impact system or program performance if not replaced or upgraded. . . .

 The above amount of cost for tuition and books charged to the grants reflects expenditures for
 ordinary staff development and not for activities relating specifically to Y2K compliance efforts.
 Further examination of the detail of these transactions revealed that several employees (beyond
 the dedicated seven) received the same training and education. This suggests that the costs were
 ordinary in nature and would have been incurred in the absence of any Y2K remediation efforts.
 Exhibit B, Part 5 provides the details of purchases of tuition and books with Y2K grant funds
 that were not related to the Y2K effort.



 CAEDD’S COMMENTS ON THE DRAFT REPORT

 CAEDD’s response contained additional information regarding the cost of tuition and books
 totaling $15,079 . The response indicates:



Harper, Rains, Stokes & Knight                                                                    18
Agreed-Upon Procedures on the State of California,
Employment Development Department’s Year 2000 Grant Expenditures


        The Mercury Interactive software testing tools were newly acquired by EDD for
        use by EDD and Y2K contractor project staff. EDD had no prior experience with
        the tools, and staff had no training in their use. Training for staff in the use of
        the tools was purchased, and $13,836 was charged to the grant to cover the cost
        of training. The audit results incorrectly disallow these charges.

 OUR CONCLUSION

 After considering the additional information and the support CAEDD provided for their position,
 we believe $13,836 of the total $15,079 spent for tuition and books was used to train staff
 working on Y2K readiness efforts and complied with the terms and provisions of the Y2K
 grants. However, we continue to question the remaining of $1,243 spent on training which was
 provided for staff not directly involved in Y2K efforts.




Harper, Rains, Stokes & Knight                                                                19
Agreed-Upon Procedures on the State of California,
Employment Development Department’s Year 2000 Grant Expenditures



                                 RECOMMENDATIONS

 We recommend the Assistant Secretary for Employment and Training recover grant
 expenditures, totaling $848,643 based on the results of the agreed-upon procedures. Such grant
 expenditures include:

        •      $603,963 of “base-funded” staff salary and benefit charges;

        •      $151,516 of hardware costs charged to the Y2K grants;

        •      $73,376 (97,676 of expenditures retroactively charged to the grants less $24,300
               of hardware costs included in the finding on unsupported hardware costs above);

        •      $18,545 that was charged to the grant yet was unsupported and unreconcilable to
               Y2K expenditures.

        •      $1,243 of expenditures for tuition and books that were unrelated to Y2K but
               charged to the grants.




Harper, Rains, Stokes & Knight                                                               20
Agreed-Upon Procedures on the State of California,
Employment Development Department’s Year 2000 Grant Expenditures


                                                                                         ATTACHMENT

                          CALIFORNIA Y2K EXPENDITURES*
                             AS OF SEPTEMBER 30, 2000
                                                   SBR                         SBR
                                                  FY 1998                     FY 1999                  TOTAL

EXPENDITURES:
PERSONAL SERVICES                               $ 494,908                $   67,207             $      562,115
PERSONNEL BENEFITS                                294,452                    19,856                    314,308
TOTAL PERSONNEL COSTS               789,360          87,063            876,423

TRAVEL                                               7,930                       1,621                   9,551
EQUIPMENT RENT                                     156,154                         -                   156,154
EQUIPMENT EXPENSES                                 208,883                       3,960                 212,843
SERVICES                                         8,743,856                   1,196,716               9,940,572
OTHER                                               45,267                       7,013                  52,280
TOTAL NONPERSONAL SERVICES                       9,162,090                   1,209,310              10,371,400

TOTAL CAPITAL EXPENDITURES                          18,287                         -                    18,287

TOTAL OPERATING EXPENSE                        $ 9,969,737               $ 1,296,373            $ 11,266,110


* As represented in Status of Obligational Authority Report No. 61 as of September 30, 2000 by CAEDD




Harper, Rains, Stokes & Knight
Agreed-Upon Procedures on the State of California,
Employment Development Department’s Year 2000 Grant Expenditures


                                                                                                         EXHIBIT A

         CALIFORNIA EMPLOYMENT DEVELOPMENT DEPARTMENT
              CALCULATION OF ALLOCATION PERCENTAGE
                      FOR JS AND UI PROGRAMS
                                                       1997
                   Project                            Person                    Branch
                 Code(Branch)                         Years*                  Percentage

                  210 (UI)                       4,366.0                        54.91 % **
          637 (DI)        1,662.2           20.91 %
                  205 (JS)                       1,135.3                        14.28 % **         640 (PIT)
           347.3 4.37 %
          803 (JTPA)        255.7 3.22 %
          622 (ETF)          66.0         .83 %
          623 (ETP)         118.2 1.48 %
                         7,950.7 100.00 %

* Person years denotes the number of person hours per year for each branch within CAEDD. The above values are for
Fiscal Year 1997 which was used as the base year to establish the relative percentages for each branch; these percentages
were then applied in each sequential year in which the project occurred.

** 54.91% UI + 14.28% JS = 69.18% Allocation Percentage




Harper, Rains, Stokes & Knight
Agreed-Upon Procedures on the State of California,
Employment Development Department’s Year 2000 Grant Expenditures

                                                                                 EXHIBIT B
                               DETAIL OF RESULTS OF
                             AGREED-UPON PROCEDURES
Expense                                                     Before           After
 Code           Doc Number       Vendor                    Allocation       Allocation

Part 1 - Hardware charges:

  645           CM810775         Dell Marketing        $    3,329.49    $    2,303.34
  645           CM810773         Dell Marketing            19,976.85        13,819.98
  645           CM810794         Government Stores          8,975.58         6,209.31
  645           CM813396         Government Stores         18,037.35        12,478.24
  645           CM813399         Dell Marketing             3,417.32         2,364.10
  645           CM813399         Dell Marketing            42,716.40        29,551.21
  645           CM814662         Quest Media                  223.04           154.30
  645           CM814747         Dell Marketing             9,849.45         6,813.85
  645           CM815452         Quest Marketing            3,986.75         2,758.03
  645           CM819221         Dell Marketing             8,423.89         5,827.65
  645           CM819221         Dell Marketing             3,161.39         2,187.05
  645           C820861          GE Capital                 6,975.37         4,813.00
  645           CM911252         CCS/Entex                 10,148.46         7,020.71
  645           C930666          GE Capital                 3,702.06         2,561.08
  645           C930666          GE Capital                   148.55           102.77
  645           CM931918         Dell Computers             1,341.50           928.05
  645           CM931918         Dell Computers             1,479.44         1,023.48
  645           CM931918         Dell Computers            20,711.73        14,328.37
  645           CM931918         Dell Computers            14,862.75        10,282.05
  645           CM931918         Dell Computers             1,390.03           961.62
  645           CM931918         Dell Computers               273.87           189.46
  645           CM931918         Dell Computers               273.87           189.46
  645           CM931918         Dell Computers             1,396.47           966.08
  645           CM931918         Dell Computers                49.57            34.29
  645           CM931918         Dell Computers                24.79            17.15
  645           CM931918         Dell Computers             2,958.82         2,046.91
  645           CM931918         Dell Computers             2,958.82         2,046.91
  645           CM931918         Dell Computers            14,862.75        10,282.05
  645           CM931918         Dell Computers             1,396.47           966.08
  645           CM931918         Dell Computers            14,862.75        10,282.05
  645           CM931918         Dell Computers             1,390.03           961.62
  645           CM931918         Dell Computers             1,399.70           968.31
  645           CM931918         Dell Computers             1,486.29         1,028.22
  645           CM931918         Dell Computers             2,958.82         2,046.91
  645           CM931918         Dell Computers             5,917.65         4,093.83
  645           CM931918         Dell Computers             1,390.03           961.62
  645           CM931918         Dell Computers            14,794.11        10,234.57
  645           CM931918         Dell Computers            16,273.51        11,258.01

Harper, Rains, Stokes & Knight
Agreed-Upon Procedures on the State of California,
Employment Development Department’s Year 2000 Grant Expenditures

                                                                                EXHIBIT B (Cont.)
                              DETAIL OF RESULTS OF
                          AGREED-UPON PROCEDURES (Cont.)

Expense                                                             Before           After
 Code            Doc Number              Vendor                    Allocation       Allocation

Part 1 - Hardware charges - continued:

  645            CM933461                Dell Computers        $    4,816.43    $   3,332.01
  645            CM931918                Dell Computers            1,396.47           966.08
  645            C035322                 Dell Computers            2,900.05         2,006.25
  645            C035322                 Dell Computers            2,823.89         1,953.57
  665            CM719671                Ameridata                   642.46           444.45
  667            CM719592                Dell Marketing            2,201.37         1,522.91
  665            C819916                 Visiplex Comm             7,904.02         5,453.77
  665            CM932002                Dell Computers           12,757.63         8,825.73
  665            C933442                 GE Capital                4,185.11         2,895.26
  665            C933442                 GE Capital                1,605.92         1,110.98
                                                               $ 308,759.07     $ 213,572.73
Part 2 - Retroactive charges:

  616            CM810792                Softwaire Ce          $    5,899.27    $    4,081.11
  616            CM810792                Softwaire Ce                   0.05             0.03
  616            CM810778                Softwaire Ce                 882.75           610.69
  645            CM810794                Government Stores          8,975.58         6,209.31
  645            CM810775                Dell Marketing             3,329.48         2,303.33
  645            CM810775                Dell Marketing                 0.01             0.01
  645            CM810773                Dell Marketing            19,976.85        13,819.98
  833            M700648A                IBM Global Services       18,765.00        12,981.63
  833            M700648A                IBM Global Services       31,522.50        21,807.27
  833            M700642                 IBM Global Services       16,942.50        11,720.82
  833            M700642                 IBM Global Services       28,755.50        19,893.05
  616            CM719669                Softwaire Ce                 450.96           311.97
  665            CM719671                Ameridata                    642.46           444.45
  667            CM719592                Dell Marketing             2,201.37         1,522.91
  910            ZV568722656             Government T                 229.00           158.42
  910            ZV567861283             Government T                 240.00           166.03
  910            ZV557413457             Government T                  80.00            55.34
  910            ZV556716088             Automated Co                 610.00           422.00
  910            ZV556716088             Government T                  80.00            55.34
  910            ZV552724061             Government T                 379.00           262.19
  910            ZV548645282             Government T                 240.00           166.03
  910            ZV547565876             Government T                 299.00           206.85
  910            ZV445729990             Automated Co                 610.00           422.00
  910            ZV445729990             Government T                  80.00            55.34


Harper, Rains, Stokes & Knight
Agreed-Upon Procedures on the State of California,
Employment Development Department’s Year 2000 Grant Expenditures

                                                                 $ 141,191.28        $   97,676.10
                                                                                               EXHIBIT B

                              DETAIL OF RESULTS OF
                          AGREED-UPON PROCEDURES (Cont.)


Expense                                                                 Before            After
 Code            Doc Number             Vendor                         Allocation        Allocation

Part 3 - Maintenance agreements:

  616            CM815053               Anadac                   $     15,000.00     $   10,377.00
  616            CM815053               Anadac                          3,055.00          2,113.45
  616            CM815053               Anadac                           3030.00          2,096.15
  616            CM815053               Anadac                               404            279.49
  616            CM930973               Mercury                        40,421.00         27,963.25
                                                                $      61,910.00     $   42,829.34


                                                                                    Unreconcilable
  Month                   Amount Charged              Acutal Amount                   Amounts

Part 4 - Unreconcilable expenditures:

  June, 1998                   $ 2,067,708               $ 2,058,711                $        8,997
  September, 1998                  823,282                   820,652                         2,630
  June, 1999                     1,637,883                 1,630,965                         6,918
                                                                                    $       18,545

Expense                                                                 Before            After
 Code            Doc Number             Vendor                         Allocation        Allocation

Part 5 - Tuition and books:

  840            ZT561726078            Nakamura                 $        196.81    $       136.15
  910            CM815053               Identix, Inc.                  20,000.00         13,836.00
  910            ZV380560286            Department of Labor               225.00            155.66
  910            ZV226622597            Chet Harmer                       250.00            250.00
  910            ZV226622597            Chet Harmer                       250.00            250.00
  910            ZV561726078            University of                     425.00            294.02
  910            ZV468565699            Health and Welfare                225.00            155.66
                                                                 $     21,571.81     $   15,077.49




Harper, Rains, Stokes & Knight
Agreed-Upon Procedures on the State of California,
Employment Development Department’s Year 2000 Grant Expenditures




Harper, Rains, Stokes & Knight
Agreed-Upon Procedures on the State of California,
Employment Development Department’s Year 2000 Grant Expenditures

                                                                   EXHIBIT C


          TEXT OF CAEDD’S RESPONSE TO THE DRAFT REPORT




The narrative of CAEDD’s response to our draft report is
presented after this title page. Names that were included in the
narrative response and may not be disclosed because of the
Privacy Act considerations have been removed. In addition,
Attachments A and C to the response have been omitted,
because they contain voluminous personal identifying
information that was impractical to remove. However, the
attachments are maintained with the working papers and
available for resolution purposes, if needed.




Harper, Rains, Stokes & Knight
Agreed-Upon Procedures on the State of California,
Employment Development Department’s Year 2000 Grant Expenditures




Harper, Rains, Stokes & Knight
